WAIVE

MI
Supreme Court, U.S.
FILED

SEP 2 1 2021

SUPREME COURT OF THE UNITED STA
No.

FICE OF THE CLERK

21-419
Google LLC and YouTube LLC

Bob Lewis
(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.

0

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Offic• 1 Fi t Street, NE, Washington, D.C. 20543).
dird 41
milysov
Signature:

9/20/21

Date:

(Type or print) Name John Schmidtlein
0 Mr.

0 Ms.

Firm

Williams & Connolly LLP

Address

725 12th Street, N.W.

City & State

Washington, DC

Phone

(202) 434-5000

0 Mrs.

0 Miss

Zip 20016
Email jschmidtlein@wc.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

CC:

Bob Lewis
2695 Patterson Rd., Suite 2, Unit 172
Grand Junction, CO 81506

RECEIVED
SEP 2

8 021

OFFICE OF THE CLERK
SUPREME COURT, U.S.

